4^1
2d-//?
No..

In THE
Supreme Court of the United States
A

JAIRO SEQUEIRA,
Petitioner,
v.
The Republic of Nicaragua, a Foreign State, The City
of Chinandega, a political subdivision of the Republic of
Nicaragua, The City of El Viejo, a political subdivision of
the Republic of Nicaragua
Respondents.

»- j

'h

*

/

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit
/

PETITION FOR A WRIT OF CERTIORARI
Jairo Sequeira, In Propia Persona
24630 Town Ctr. Dr. Suite 1310,
Valencia, CA 913555
818-714-4676
soyjairosequeira@gmail.com
July 2, 2020

FILED
JUL 1 6 2020

["received
JUL 22 2020
SUPREME Cn!fR9L,^K

K3

v

i

i

QUESTIONS PRESENTED
Section 1605(a)(1) of the Foreign Sovereign Immunities
Act (“FSIA”) provides that a foreign state shall not be
immune from the jurisdiction of United States Courts
when the foreign state has waived its immunity explicitly.
There is a split in the circuit courts in determining
jurisdiction when faced with a contract containing an
explicit waiver. Most courts have ruled that explicit
waivers and jurisdiction is ascertained simply by reading
the contract in which an explicit waiver is made. In the
case below however, the Ninth Circuit Court of Appeals
affirmed the district court’s approach of making a decision
on the validity of the contract based on foreign contract
law before determining jurisdiction by explicit waiver.
The questions presented are:
1. Whether 1605(a)(1) of the FSIA waiver exception requires
courts to determine jurisdiction based on whether or not a
contract contains an explicit waiver prior to determining
the validity of the contract by interpreting foreign law,
and, if not, would the ruling on validity first prevent a
party from finding jurisdiction elsewhere.
2. Whether a foreign state’s taking of a U.S. construction
company and the property it is on, for the purpose of
building houses to sell and rent, which leads to the non­
payment of dividends in the U.S., meets the direct effect
doctrine of the FSIA 1605(a)(2) clause 3.
3. Is a written contractual promise by a foreign state to
make payments in the U.S. in exchange for property in
the foreign state considered property rights present in the
U.S. in accordance with §1605(a)(3) clause one of the
FSIA illegal taking exception?

V

11

PARTIES TO THE PROCEEDING BELOW
Petitioner Jairo Sequeira was the Plaintiff-appellant
below.
Respondent, the Republic of Nicaragua, is a Foreign
State and was a defendant and appellee below.
Respondent, the City of Chinandega, is a political
subdivision of the Republic of Nicaragua and was a
defendant and appellee below.
Respondent, the City of El Viejo, is a political
subdivision of the Republic of Nicaragua and was a
defendant and appellee below.

*
' I.

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDINGS BELOW

11

TABLE OF CONTENTS

m

TABLE OF APPENDICES

,iv

TABLE OF AUTHORITIES

,v

OPINIONS AND ORDERS BELOW

1

JURISDICTION,

1

STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE PETITION

6

I. There is a split in the circuit courts in determining
jurisdiction when faced with a contract containing
an explicit waiver,
6
II. The decision below creates a circuit split, and
departs from this Court’s precedent on questions
involving the direct effect doctrine under
1605(a)(2) of the FSIA.............................................. 9
III. The Circuit’s decision creates uncertainty as to
the
scope
of
the
FSIA
expropriation
exception
11

CONCLUSION,

12

\

IV

TABLE OF APPENDICES
APPENDIX A:
Mandate of the Ninth Circuit No. 18-56269
(April 27, 2020).................................. .............

la

APPENDIX B:
Order of the Ninth Circuit regarding rehearing en banc,
2a
No. 18-56269 (April 17, 2020)
APPENDIX C:
Order of the Ninth Circuit (Jan 28, 2020)

4a

APPENDIX D:
Order of the Central District Court of California
(August 24, 2018) Docket No. 195........................ .

8a

APPENDIX E:
Judgment of the Central District Court of California
(August 24, 2018) Docket No. 196................................. 37a
APPENDIX F:
Order of the Ninth Circuit No. 15-55417
(May 30, 2017)............................................

38a

APPENDIX G:
Settlement Agreement

40a

APPENDIX H:
United States Congress Bills

52a

APPENDIX I:
Nicaraguan Statutory Provisions Involved,

67a

\
' o

V

TABLE OF AUTHORITIES
CASES:
Anderman v. Fed. Republic of Austria,
256 F. Supp. 2d 1098, 1105-06 (C.D. Cal. 2003)

6, 14

Argentine Republic v. Amerada Hess Shipping Corp.,
488 U.S. 428, 439, 109 S.Ct. 683, 690,
102 L.Ed.2d 818 (1989)
3, 6, 12
Gregorian v. Izvestia, 871 F.2d 1515, 1527
(9th Cir.1989)..............................................

9, 28

Joseph v. Office of Consulate General of Nigeria,
830 F.2d at 1024....................................................

11, 14

L'Europeenne de Banque v. La Republica de Venezuela,
700 F.Supp. 114, 121 (S.D.N.Y.1988)............................. 9
Meadows v. Dominican Republic, 817 F.2d 517
(9th Cir.1987)......................................................

9, 10

Mansfield, C. L.M.R. Co. v. Swan, 111 U.S. 379, 382
(1884).................................................................................
Omnia Commercial Co., Inc. v. United States,
261 U.S. 502, 508 (1923).................................

12

Republic of Argentina v. Weltover, Inc.,
504 U.S. 607, 618-19 (1992)...............
Siderman de Blake v. Republic of Argentina,
965 F.2d 699, 706 (9th Cir. 1992)................

8

9, 28

7, 9, 10, 11

Sosa v. Alvarez-Machain,
542 U.S. 692 at 111 (2004)

8

Steele Company v. Citizens for a Better Environment,
523 U.S. 83, at 88-89, 118 S.Ct. 1003 (1998).............

8

\ .

Verlinden B. V. v. Central Bank of Nigeria
461 U.S. 480 at 493-94, 103 S.Ct. at 1971(1983)

6

Restatement (Third) of Foreign Relations Law of the
United States §391 (1987)..............................................

3

STATUTES
28 U.S.C. § 1605(a)(1)

i, 3, 7

28 U.S.C. § 1605(a)(2)

i, 3, 9

28 U.S.C. § 1605(a)(3)

i, 3, 10

Article 2372 of Nicaraguan Civil Code

3

1
OPINIONS BELOW
The Order of the Ninth Circuit court of appeals are
unreported and are reproduced at App.4a-8a, App. 38a39a The order denying petitioners’ petition for rehearing
and rehearing en banc is unreported and is reproduced at
App.2a-3a. The District Court’s order is unreported and is
reproduced at App.8a-36a. The District Court’s Judgment
is unreported and is reproduced at App.37a-93.
JURISDICTION
The Ninth Circuit court of appeals entered judgment
on January 28, 2020. It denied rehearing en banc on April
17, 2020. Jurisdiction is proper under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
The Foreign Sovereign Immunities Act (“FSLA”) of 1976,
28 U.S.C. § 1605 (a)(1), provides:
A foreign state shall not be immune from the
jurisdiction of courts of the United States in any case
in which the foreign state has waived its
immunity either explicitly or by implication, not­
withstanding any withdrawal of the waiver which the
foreign state may purport to effect except in
accordance with the terms of the waiver
28 U.S.C. § 1605 (a)(2), provides that:
A foreign state is not immune from jurisdiction
where the action is based
3 upon an act outside the territory of the United
States in connection with a commercial activity of
the foreign state elsewhere and that act causes a
direct effect in the United States

2

28 U.S.C. § 1605 (a)(3), provides:
(a) A foreign state shall not be immune from
the jurisdiction of courts of the United States
or of the States in any case—

(3) in which rights in property taken in violation
of international law are in issue and that property or
any property exchanged for such property is present
in the United States in connection with a commercial
activity carried on in the United States by the foreign
state; or that property or any property exchanged for
such property is owned or operated by an agency or
instrumentality of the foreign state and that agency
or instrumentality is engaged in a commercial activity
in the United States.
STATEMENT OF THE CASE
This case presents three exceptionally important
questions concerning the scope of federal jurisdiction over
foreign states under the Foreign Sovereign Immunities
Act (FSIA). These three questions have divided the lower
courts: First, whether a court should first determine the
validity of a contract by applying its interpretation of
foreign law concerning its notarization before it applies
the FSIA to a contract containing a waiver exception
clause; and if so, does that determination go into the
merits of the case thus preventing a party from finding
jurisdiction elsewhere. Second, whether a foreign state
seizing a U.S. construction Company in its territory for
the purpose of building houses for sale and rent amounts
to a commercial act under direct effect doctrine of the
FSIA 1605(a)(2) clause 3. Finally, is a contractual promise
by a foreign state to make payments in the U.S. in
exchange for property in the foreign state considered to be
property rights present in the U.S. in accordance with
§ 1605(a)(3) clause one of the FSIA illegal taking
exception?
These issues are vitally important. To allow

3
foreign states to maintain their immunity in the courts for
ordinary commercial transactions is granting them an
unfair advantage in competition with private commercial
enterprise. It also arguably denies private parties in other
nations normal recourse to courts to settle disputes. See,
Restatement (Third) of Foreign Relations Law of the
United States §391 (1987).
The FSIA “provides the sole basis for obtaining
jurisdiction over a foreign state in the courts of this
country.” Argentine Republic v. Amerada Hess Shipping
Corp., 488 U.S. 428, 443 (1989). Foreign sovereigns are
“presumptively immune from the jurisdiction of United
States courts” under the statute, and may be sued only if
“one of the Act’s express exceptions to sovereign immunity
applies.” Sachs, 136 S. Ct. at 394 (quoting Nelson, 507
U.S. at 355).
The first of the exceptions, here, recognizes that a foreign
sovereign may waive its immunity from suit, either
“explicitly or by implication.” 28 U.S.C. § 1605(a)(1).
The second exception abrogates immunity from suits
based on certain types of “commercial activity by the
foreign sovereign. 28 U.S.C. § 1605(a)(2). The remaining
exceptions abrogate immunity from select actions related
to property rights. 28 U.S.C. § 1605(a)(3).
This appeal has its origins in a Settlement Agreement
between the petitioner, Jairo Sequeira (Sequeira), a U.S.
citizen, and respondent the City of El Viejo (El Viejo), a
political subdivision of the Republic of Nicaragua,
(Nicaragua), a foreign state, acting on behalf and for the
benefit of Nicaragua. Pet. App. 40a-52a. On May 29, 2007,
the parties agreed to settle their dispute over the
undeveloped eastern half of a piece of property in El Viejo
where Sequeira’s construction company, Smith Inc., is
located. Nicaragua took this portion of land from Sequeira
for the purpose of building a Stadium and houses to sell
and rent. El Viejo agreed to deposit $2.5 million dollars
into Sequeira’s U.S. bank account in exchange for the
land. Clause three of the settlement agreement includes
a jurisdictional waiver clause and a

4
choice of law clause wherein El Viejo explicitly waives its
jurisdiction to a California Court in the event of a breach
or dispute over the settlement agreement. Nicaragua
proceeded to build on Sequeira’s property a Stadium and
houses to sell and rent through its housing agency
INVUR. Neither El Viejo nor Nicaragua deposited the
$2.5 million dollars as promised. Instead, in November
2012, Nicaragua took the remainder of Sequeira’s
property, the western half, which was developed with
several warehouses, a Multi-Processing plant and
Sequeira’s construction company. Respondents began
operating and managing the Multi-Processing Plant for
personal gain in 2012.
In 2013, Sequeira sued Nicaragua, Chinandega and El
Viejo, et al., for breach of contract, expropriation,
intentional interference with prospective economic
advantage and business relationship claims, inter alia
claims.
On August 1, 2014, the district court dismissed
Sequeira’s first amended complaint against Nicaragua,
Chinandega, and El Viejo with prejudice. It ruled that
Sequeira did not produce evidence that an exception
under the FSIA applied. Sequeira timely appealed the
district court’s ruling. Pet.
On May 24, 2017, the Ninth Circuit ruled that,
“Sequeira was not required to produce evidence in
response to a facial attack on subject matter jurisdiction.”
The Ninth Circuit reversed the dismissal of Sequeira’s
claims against the sovereign defendants and remanded
the case for further proceedings.
On January 31, 2018, Sequeira filed his third amended
complaint against Nicaragua, Chinandega, and El Viejo.
On August 24, 2018, the district court ruled that it lacks
jurisdiction because, based on its interpretation of foreign
law, it found the contract to be void ab initio and invalid
even though it contained a waiver exception clause and
choice of law clause and cited case law to the effect that
“Ultimately, “the essential inquiry in written agreement

5
cases is whether a sovereign contemplated the
involvement of the United States courts in the affair in
issue”.
Because the court ruled the contract is invalid it is
likely other courts will rely on this court’s ruling that the
contract is invalid and Sequeira will be prevented from
exercising his rights in other jurisdictions. The district
court relied on the interpretation of foreign law to
determine the validity of the contract without
determining jurisdiction first. If the district court had
determined jurisdiction based on the reading of the
contract, which contains an explicit waiver, the parties
would have then proceeded to engage in discovery to show
whether the contract was properly notarized under
Nicaraguan law, which it was. However, the district court
put more weight on defendants’ affidavits than
Sequeira’s.
The district court stated that it found “direct effect”.
Pet. App. 29a. Under FSIA, direct effect, in and of itself,
grants jurisdiction. However, at this point the court
linked the stand alone element of direct effect with the
separate provision of illegal taking and determined that it
lacks jurisdiction.
Further, the district court found that although the record
shows that the foreign state took Sequeira’s property in
violation of international law, it found no commercial
activity in the U.S. The district court did not consider the
settlement contract that was to be paid in the U.S. as
property rights present in the U.S. under § 1605(a)(3) of
the FSIA.
Sequeira timely appealed. The Ninth Circuit affirmed the
lower court’s decision. Sequeira requested a rehearing and
rehearing en banc, which was denied.

6
REASONS FOR GRANTING THE PETITION
I.THERE IS A SPLIT IN THE CIRCUIT
COURTS IN DETERMINING JURISDICTION
WHEN FACED WITH A CONTRACT
CONTAINING AN EXPLICIT WAIVER.
The Ninth Circuit court’s decision below, applying
foreign law to a contract containing a waiver exception to
determine whether it is valid before determining whether
the FSIA applies, is contrary to the decisions of the
Supreme Court of the United States, other Circuits
precedents and its own. Consideration by this Court is
necessary to secure and maintain uniformity of decisions
in the courts.
This Court has ruled, and other Circuits have applied
its precedent, that “[a]t the threshold of every action in a
district court against a foreign state...the court must
satisfy itself that one of the [FSIA] exceptions applies.”
Verlinden B. V. u. Central Bank of Nigeria 461 U.S. 480 at
493-94, 103 S.Ct. at 1971 (1983). A federal court lacks
subject matter jurisdiction over a claim against a foreign
state unless the claim falls within an exception to
immunity under the FSIA. See 28 U.S.C. 1330(a);
Verlinden, id at 1969; see also Argentine Republic v.
Amerada Hess Shipping Corp., 488 U.S. 428, 439, 109
S.Ct. 683, 690, 102 L.Ed.2d 818 (1989) (FSIA is the "sole
basis for obtaining jurisdiction over a foreign state in
federal court").
Under the FSIA, a foreign sovereign may elect to waive
its immunity from suit “either explicitly or by
implication.” 28 U.S.C. § 1605(a)(1).

i

“Explicit waivers may be ascertained simply by reading
the document in which an explicit waiver is purportedly
made.” Anderman v. Fed. Republic of Austria, 256 F.
Supp. 2d 1098, 1105-06 (C.D. Cal. 2003).
Ultimately, “the essential inquiry in written agreement

-i ,J

7
cases is whether a sovereign contemplated the
involvement of United States courts in the affair in issue.”
Siderman, 965 F.2d at 721.
Although, the district court cited these cases in its
ruling, and although it read the contract, it departed from
these precedents. Rather than inquiring whether the
sovereign contemplated the involvement of U.S. courts to
determine whether it had jurisdiction or ascertaining
whether an explicit waiver existed simply by reading the
document in which an explicit waiver is purportedly
made, it looked into the elements of formation of
contracts, erroneously applying foreign law, namely,
Nicaraguan Civil Code 2372.
The Ninth Circuit departed from its own precedent
established in the Siderman case thereby creating a
circuit split. In Siderman, the district court erroneously
dismissed the plaintiffs’ claims by evaluating the validity
of the sovereign acts taken by the foreign state under the
act of the state doctrine prior to being vested with
jurisdiction. Siderman de Blake v. Republic of Argentina,
965 F.2d 699, 706 (9th Cir. 1992). Here, the court
dismissed petitioner’s breach of contract claim based on
its interpretation of the notarization act prior to being
vested with jurisdiction. In Siderman it was established
that “As a threshold matter, a court adjudicating a claim
against a foreign state must determine whether the
Foreign Sovereign Immunities Act provides subject
matter jurisdiction over the claim, and it is in error to
consider act of state issue without first considering the
threshold issue of subject matter jurisdiction”. Here, the
lower court adjudicated Sequeira’s claim of breach of
contract by ruling the contract is invalid without first
considering the threshold issue of subject matter
jurisdiction.

>■

I

8
The requirement that jurisdiction be established as a
threshold matter "springfs] from the nature and limits
of the judicial power of the United States" and is
"inflexible and without exception." Mansfield, C. L.M.R.
Co. v. Swan, 111 U.S. 379, 382 (1884).
This Court has held that jurisdiction “would normally
be considered a threshold question that must be
resolved... before proceeding to the merits. Steele
Company v. Citizens for a Better Environment, 523 U.S.
83, at 88-89, 118 S.Ct. 1003 (1998). The Ninth Circuit’s
threshold question was whether the contract was valid or
not under the Nicaraguan Notarization Act and then it
resolved that it was invalid based on its erroneous
interpretation of Nicaragua Notarization Act thereby
proceeding to the merits of the case.
This Ninth Circuit’s decision is in conflict with Sosa v.
Alvarez-Machain, 542 U.S. 692 at 111, another U.S.
Supreme Court case specifying the order of deciding cases,
which is first jurisdiction then merits. Here the Ninth
Circuit did the opposite. It ruled that the petitioner’s
contract is invalid based on its erroneous interpretation of
foreign law and then based on that ruling decided that it
lacked jurisdiction. By not following the order established
in the Sosa case, the lower court entered a summary
judgment on the petitioner’s breach of contract claim.
Consequently, it deprived petitioner of his Constitutional
rights to litigate his case and prove that his contract is
valid in other jurisdictions.
If courts follow the Ninth Circuit’s order of deciding
cases, first merits then jurisdiction, it will deprive
litigants of their Constitutional rights to litigate their
cases.

9
II. THE DECISION BELOW CREATES A
CIRCUIT SPLIT, AND DEPARTS FROM THIS
COURT’S PRECEDENT ON QUESTIONS
DIRECT
EFFECT
INVOLVING
THE
DOCTRINE UNDER 1605(A)(2) OF THE FSIA.
The Ninth Circuit decision conflicts with this Court’s
precedent in Weltover, in which the Supreme Court held
that Argentina’s breach of a contract to pay bondholders
in New York had a direct effect in the United States.
Republic of Argentina v. Weltover, Inc., 504 U.S. 607, 618—
19 (1992) In the present case, the Ninth Circuit found
that the settlement contract showing that respondents
agreeing to deposit $2.5 million in Sequeira’s U.S. bank
account does not amount to commercial activity.
Further, the Ninth Circuit conflicts with its own
precedents and other circuits. In Siderman, the Ninth
Circuit held that: “in cases where a plaintiffs claim is for
breach of a contract providing that payment or
performance must be made in the United States, the
“direct effect” requirement has been deemed satisfied.”
Siderman at 710.
In Meadows v. Dominican Republic, the Ninth Circuit:
“considered an action brought by two U.S. residents to
recover a loan commission they earned by obtaining a
loan on behalf of a foreign government. Under the loan
agreement, the commission was to be paid in the U.S.
through the plaintiffs' bank and the Court found this to be
a sufficiently direct effect to permit jurisdiction under
clause three.” Meadows v. Dominican Republic, 817 F.2d
517 (9th Cir.1987). Siderman, at 711 (citing Meadows at
817 F.2d at 523. See also Gregorian v. Izvestia, 871 F.2d
1515, 1527 (9th Cir.1989) (discussing similar cases);
L'Europeenne de Banque v. La Republica de Venezuela,
700 F.Supp. 114, 121 (S.D.N.Y.1988) (extending rule to
encompass foreign plaintiff).
The Ninth Circuit decision conflicts with its own
precedent and creates a circuit split by affirming the
district court’s decision that FSIA immunity under

'i1.

10
28 U.S.C. § 1605 (a)(2) does not apply despite the fact that
the district court found direct effect due to the foreign
state’s act of taking Sequeira’s property and ruling that
“The taking had the “direct effect” of crippling Smith, Inc.
such that it could not longer pay its taxes, leading to its
suspension in 2009” but finding that there was no
commercial activity. App. 29a. The Ninth Circuit and the
district court disregarded the fact that the same taking
the district court was referring to also led to the
nonpayment of dividends in the U.S. to Smith Inc.’s
shareholders, Sequeira being one of them. In Siderman
the Ninth Circuit held that “The dispositive element in
clause three for purposes of this case, therefore, is the
requirement that the acts cause a direct effect in the
United States.” This same court held in Siderman that
“As an owner and shareholder of INOSA, each of the
Sidermans is entitled to a share of the profits earned by
the corporation. If INOSA's articles of incorporation or by­
laws (or the equivalent corporate documents under
Argentine law) require INOSA to pay those dividends at
the shareholder's place of residence, the United States,
we believe in light of Meadows that the direct effect
requirement would be satisfied.” Similarly to the
Siderman case, Sequeira, as an owner and shareholder of
the businesses the Appellees took over, is entitled to a
share of the profits earned by the corporations.
Furthermore, Smith Company's by-laws and articles of
incorporation require Smith Company to pay those
dividends at the shareholder's place of residence, the
United States.
The Ninth Circuit Court is in contravention with the
Supreme Court’s precedent in Nelson, which held:
“Congress manifestly understood there to be difference
between a suit “based upon” commercial activity and one
“based upon acts” performed “in connection with” such
activity. The Ninth Circuit held that Sequeira did not
prove commercial activity even though it found that the

4> .

•\ .

11
foreign state seized Sequeira’s Multi-Processing Plant
where his construction company was located and
respondents submitted evidence and acknowledged that
its agency, INVUR was selling, renting, managing and
operating the houses they built on Sequeira’s property.
In Siderman, the Ninth Circuit held “The Sidermans
base their claims on Argentina's seizure and continuing
operation of INOSAi both of which constitute acts that
Argentina has performed outside United States territory.
It is equally clear that they have been performed in
connection with the commercial activities of operating the
Hotel Gran Corona and managing INOSA's real estate
investments in Argentina. These activities are, as noted
above, "of a kind in which a private party might engage."
Joseph, 830 F.2d at 1024.
III.

THE CIRCUIT’S DECISION CREATES
UNCERTAINTY AS TO THE SCOPE OF
THE FSIA EXPROPRIATION EXCEPTION.

Under the expropriation exception, a foreign state is not
immune from suit if “rights in property taken in violation
of international law are in issue and that property or any
property exchanged for such property is present in the
United States in connection with a commercial activity
carried on in the United States by the foreign state; or
that property or any property exchanged for such property
is owned or operated by an agency or instrumentality of
the foreign state and that agency or instrumentality is
engaged in a commercial activity in the United States.”
1605(a)(3)
The district court found that that the foreign state took
Sequeira’s property in violation of international law but
found no commercial activity in the U.S. However, the
expropriation exception is met when “property or any
property exchanged for such property is present in the
United States in connection with a commercial activity
carried on in the United States by the foreign state.”
Sequeira received from the foreign state a written
contractual agreement in exchange for part of his
property located in Nicaragua. That contractual

*r A

12
agreement is enforceable in the United States and is
currently present in the United States. The Supreme
Court has established that contractual obligations are
property rights. Omnia Commercial Co., Inc. u. United
States, 261 U.S. 502, 508 (1923) (“The contract in question
was property within the meaning of the Fifth Amendment
. . . and if taken for public use the Government would be
liable.” (citations omitted)). Consequently, the Ninth
Circuit decision conflicts with the Supreme Court’s
precedent.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully, submitted.
(pWSe eira Pro Se
/24630 Town Center
Drive, Suite 1310,
Valencia, CA 91355
Phone: 818-714-4676
July 16, 2020

